<html>
<title> - NOMINATIONS OF MICHAEL K. O'KEEFE AND ROBERT D. OKUN</title>
<body><pre>[Senate Hearing 113-74]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 113-74
 
          NOMINATIONS OF MICHAEL K. O'KEEFE AND ROBERT D. OKUN

=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON

               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS


                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS


                             FIRST SESSION

                               __________

NOMINATIONS OF MICHAEL K. O'KEEFE TO BE ASSOCIATE JUDGE, SUPERIOR COURT 
 OF THE DISTRICT OF COLUMBIA AND ROBERT D. OKUN TO BE ASSOCIATE JUDGE, 
               SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                               __________

                              MAY 15, 2013

        Available via the World Wide Web: http://www.fdsys.gov/




                  U.S. GOVERNMENT PRINTING OFFICE
81-296                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       Printed for the use of the

        Committee on Homeland Security and Governmental Affairs


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
            Deirdre G. Armstrong, Professional Staff Member
               Kristine V. Lam, Professional Staff Member
               Patrick D. McQuillan, Staff Director, EMDC
               Keith B. Ashdown, Minority Staff Director
                  Sara Beth Groshart, Minority Counsel
            Brandon R. Booker, Minority Staff Director, EMDC
                     Trina D. Shiffman, Chief Clerk
                    Laura W. Kilbride, Hearing Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Begich...............................................     1
    Senator Paul.................................................    10
    Senator Carper...............................................    14
Prepared statements:
    Senator Begich...............................................    19

                               WITNESSES
                        Wednesday, May 15, 2013

Hon. Eleanor Holmes Norton, A Representative in Congress from the 
  District of Columbia
    Testimony....................................................     2
Michael K. O'Keefe, nominated to be an Associate Judge, Superior 
  Court of the District of Columbia
    Testimony....................................................     3
    Prepared statement...........................................    20
    Biographical and professional information....................    22
Robert D. Okun, nominated to be an Associate Judge, Superior 
  Court of the District of Columbia
    Testimony....................................................     4
    Prepared statement...........................................    21
    Biographical and professional information....................    38

                                APPENDIX

Paul Strauss, U.S. Shadow Senator for the District of Columbia, 
  prepared statement.............................................    58


          NOMINATIONS OF MICHAEL K. O'KEEFE AND ROBERT D. OKUN

                              ----------                              


                        WEDNESDAY, MAY 15, 2013

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
presiding.
    Present: Senators Carper, Begich, and Paul.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. This hearing will come to order.
    Thank you all very much for being here. Good afternoon. 
Today this Homeland Security and Government Affairs Committee 
meeting is to consider the nominations of Robert D. Okun and 
Michael K. O'Keefe to be Associate Judges of the District of 
Columbia Superior Court. Again, welcome to both of you and your 
families.
    I am pleased that Congresswoman Norton is able to join us 
today to introduce these nominees. Thank you, also, for being 
here, Congresswoman. I would also like to extend a warm 
welcome, as I said earlier, to the families and friends of the 
nominees in attendance. I am glad you could join them to give 
them the support they need. I told them it would not be that 
painful, but who knows. We will see how they answer questions.
    This Committee consistently receives excellent candidates 
nominated by the President, recommended by the nonpartisan 
District of Columbia Judicial Nomination Commission. This 
process is critical to ensuring we have candidates who are 
experienced and have the appropriate temperament to be in these 
positions.
    It is no secret that judges have critically important 
duties in our society. Judges must uphold and interpret the 
law, resolve disputes equitably, and protect the rights and 
liberties of our citizens. If confirmed, I trust each of you 
will fulfill these responsibilities with respect, character, 
and deference befitting this court.
    As many of you already know, Mr. Okun currently serves as 
the Head of Special Proceedings in the United States Attorney's 
Office for the District of Columbia. The Special Proceedings 
Division handles all post-conviction litigation in both U.S. 
District Court and Superior Court. Since 1987, Mr. Okun has 
worked for the Department of Justice (DOJ), both in the Civil 
Division and the U.S. Attorney's Office for the District.
    Mr. O'Keefe is currently a solo practitioner with a 
practice that focuses mostly on criminal defense and family 
law. He has been a member of the District of Columbia Bar since 
1994, handled more than 2,000 cases in the Supreme Court, and 
litigated over 200 trials. He serves on the panel of Criminal 
Justice Act Law, lawyers who are appointed by the court to 
represent indigent parties in criminal proceedings.
    Mr. Okun and Mr. O'Keefe, I have reviewed your biographical 
questionnaires and believe you are both well-qualified to serve 
as Associate Judges for the Superior Court of the District of 
Columbia. While you have pursued different career paths within 
the legal field that led you to this point, I know you both 
will bring extensive legal experiences to the bench.
    I look forward to your testimony and hearing about your 
education, experience, and other questions we will have for 
you. Again, thank you both for being here and allowing us some 
time today and for your willingness to serve.
    Congresswoman Norton, again, thank you for joining us and 
let me proceed with your remarks.

 TESTIMONY OF HON. ELEANOR HOLMES NORTON, A REPRESENTATIVE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you very much, Mr. Chairman. May I say it 
has been a pleasure working with you in your new role, although 
this may be the first time you have sat to hear from Article I 
judges, because the District of Columbia's judges are Article I 
judges, which means that though they are chosen in the District 
of Columbia, they must come before you and must be approved by 
the Senate. I will not belabor the outstanding qualifications 
of these two candidates which you have just described.
    Mr. O'Keefe, it is enough to say that he has spent his 
entire career practicing in areas of primary importance to the 
Superior Court in criminal law and family law. He is a graduate 
of Notre Dame and of the American University's Washington 
College of Law where he was an associate editor of the Law 
Review.
    Mr. Okun, similarly, has deep experience in the Superior 
Court of the District of Columbia and in the U.S. Court. He has 
served in virtually every top position in the U.S. Attorney's 
Office, has practiced in the District Court as well as the 
Superior Court. He has very extensive experience of the kind 
that would be particularly useful on our Superior Court.
    He was a trial attorney at the Justice Department in 
addition to being an Assistant U.S. Attorney, and again, with 
outstanding educational background with his bachelor's from the 
University of Pennsylvania, Magna Cum Laude, and his law degree 
Cum Laude from Harvard Law School. He even clerked on the court 
where he hopes to sit.
    I think this will not be a difficult task for you, Mr. 
Chairman.
    Senator Begich. Thank you very much. I was about to say, 
what have they not both done? Our Committee rules require that 
the witnesses at a nomination hearing give their testimony 
under oath, so therefore, I ask you both to please stand and 
raise your right hand.
    Do you swear that the testimony you are about to give this 
Committee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. O'Keefe. I do.
    Mr. Okun. I do.
    Senator Begich. Thank you very much. Let it be noted for 
the record that both witnesses answered in the affirmative. And 
again, thank you all for being here.
    Mr. O'Keefe, again, thank you for being here. Let me 
proceed with your opening statement.

    TESTIMONY OF MICHAEL K. O'KEEFE,\1\ NOMINATED TO BE AN 
  ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. O'Keefe. Thank you, Chairman Begich. Thank you for 
chairing today's hearing. I would also like to convey my 
appreciation to Senator Carper and Senator Coburn and the 
Committee staff for scheduling this hearing and treating me 
with such courtesy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. O'Keefe appears in the Appendix 
on page 20.
---------------------------------------------------------------------------
    It is an honor to be a nominee for the Associate Judge of 
the Superior Court of the District of Columbia. I would like to 
thank Judge Emmet Sullivan and the Judicial Nominations 
Commission for referring me to the White House and to President 
Barack Obama for nominating me to this position.
    Thank you, Congresswoman Eleanor Holmes Norton for your 
kind words in introducing me this afternoon. I would like to 
also acknowledge the members of the Superior Court community, 
the judges, lawyers, U.S. marshals, and support staff whose 
passion for justice and dedication to the people of the 
District of Columbia is an inspiration.
    I would like to thank my wife, Susan, who has encouraged me 
to pursue a life of public service. Unfortunately, she is not 
here today. She is in Ireland on a business trip, but I trust 
she is watching this hearing on her laptop. My oldest son, 
Dylan, is here. He is taking a break from studying for high 
school finals. And my two other children, Quinn and Maeve, are 
in elementary school today. I would also like to thank Scott 
and Courtney Pastrick, my brother-in-law and sister-in-law, who 
are also present, and their son, Clark, who center our family 
here in Washington, DC. I am sorry to say that my parents, the 
late Francis and Mary O'Keefe, did not live to see this moment.
    My father, who was a first generation American, served in 
World War II and obtained his law degree at night with the help 
of the G.I. Bill. He would have been especially proud. My 
mother was also a first generation American, who raised nine 
children with a smile on her face, would have loved to have 
been here. Finally, I would like to thank my brother, Dr. 
Robert O'Keefe, without whose support I would never have been 
able to attend law school. I am lucky to have been raised in a 
number of interesting locations around the world, but 
Washington, DC, is my home. I first came to Washington, DC, 26 
years ago as a recent college graduate with a desire to pursue 
a career in public service.
    While working in the U.S. Senate, I attended law school in 
the evening at American University where I learned to love the 
law. Although I was always interested in the litigation, it was 
not until I served as a juror on a homicide trial in D.C. 
Superior Court in 1994 that I was drawn to trial advocacy. I 
began accepting appointments in D.C. Superior Court 
representing low-income defendants and families while working 
for the law firm of O'Connor & Hannan. The work was so 
satisfying that by 1998, I left the firm to start my solo 
practice and I have never looked back. For the past 19 years, I 
have represented clients in nearly every division of D.C. 
Superior Court with the majority of my cases in the criminal 
and family divisions. Having handled so many matters in 
Superior Court, I have a strong appreciation for the essential 
qualities that make a great judge. I would be honored to put my 
experience to work ensuring that the people of this city 
receive an impartial and thoughtful consideration of their 
cases, and that justice is done with fairness and respect for 
all. Thank you, Mr. Chairman. I would be happy to answer any 
questions.
    Senator Begich. Thank you very much. Let me go to Mr. Okun. 
You can go to your testimony, please.

 TESTIMONY OF ROBERT D. OKUN,\1\ NOMINATED TO BE AN ASSOCIATE 
       JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Mr. Okun. Thank you, Mr. Chairman. 
--------------------------------------------------------------------
    \1\ The prepared statement of Mr. Okun appears in the Appendix on 
page 21.
---------------------------------------------------------------------
    Mr. Chairman, thank you for giving me the opportunity to 
appear before you as you consider my nomination to be an 
Associate Judge of the Superior Court of the District of 
Columbia. I would like to thank the Judicial Nomination 
Commission and its chair, Judge Emmet Sullivan, for 
recommending me to the White House, and I would like to thank 
President Obama for nominating me. I also would like to thank 
Congresswoman Norton for taking the time out of her busy 
schedule to introduce me at the hearing today. In addition, I 
would like to express my appreciation to the Committee Members 
and to the Committee staff for their hard work and for 
considering my nomination so expeditiously.
    I would also like to introduce the members of my family who 
are here today. Unfortunately, my son, Eli, could not be here 
today because he is in the middle of finals at college. 
However, I am happy to say that my daughter, Julia, is here 
today, after having finished the AP exam this morning, and----
    Senator Begich. It must be a relief for her.
    Mr. Okun. And I am also happy to introduce my wife, Sue, 
who has been my biggest support and guidance during the entire 
judicial nomination process. I am grateful that my wife, Sue, 
and my daughter, Julia, could be here today to be with me on 
this occasion, but I would also like to recognize two people 
who are not here today and that is my late parents, Bill and 
Judy Okun, who would be very happy to see me sitting here 
today, and without whom I would not be sitting here today.
    Finally, I would like to acknowledge my many friends and 
colleagues, some of whom are here today, and to thank them for 
all their support and kindness over the years. My entire career 
has been dedicated to public service, and the majority of my 
career has been specifically dedicated to serving the people of 
the District of Columbia.
    In fact, as was mentioned, I started my legal career as a 
judicial law clerk in the Superior Court, and I served as a law 
clerk for the Hon. Frank E. Schwelb, who I am happy to say is 
here today. I also spent a significant portion of my career as 
a consumer protection attorney, first at the Federal Trade 
Commission (FTC), and then at the U.S. Department of Justice.
    And last but not least, I have served as a prosecutor for 
more than 19 years in the U.S. Attorney's Office here in the 
District of Columbia. And I have litigated a wide variety of 
cases both in Superior Court and the U.S. District Court. It 
would be a privilege and an honor for me to continue my public 
service and my commitment to the citizens of the District of 
Columbia as an associate judge of the Superior Court.
    Thank you again for considering my nomination and I look 
forward to answering any questions you may have.
    Senator Begich. Thank you again for both your statements. I 
will have some required questions in a second, but I do want to 
just note Mr. Paul Strauss, D.C. Shadow Senator here, also 
joined us. Thank you very much for being here this afternoon. I 
am still on Alaska time, so I have to apologize for that.
    I will have to begin with some standard questions this 
Committee asks of all nominees, and I would like both of you to 
answer these questions as I read them. The first question is, 
is there anything that you are aware of or in your background 
that might present a conflict of interest with the duties of 
the office to which you have been nominated for?
    Mr. O'Keefe. No, Mr. Chairman.
    Mr. Okun. No, Mr. Chairman.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated for?
    Mr. O'Keefe. No, Mr. Chairman.
    Mr. Okun. No, Mr. Chairman.
    Senator Begich. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from serving the 
full term of the office to which you have been nominated for?
    Mr. O'Keefe. No, Mr. Chairman.
    Mr. Okun. No, Mr. Chairman.
    Senator Begich. Thank you very much for answering those 
more formal questions for the record. This one, I am going to 
ask this kind of in a formal way, but I would have a little 
different way of asking it in a private setting. Why do you 
want to be an associate judge to the D.C. Court? Let me start 
with Mr. Okun.
    Mr. Okun. Thank you, Mr. Chairman. Well, there are many 
reasons that I would like to be an associate judge of the 
Superior Court, but I think the most important reason is that 
it would give me a broader opportunity to make a difference in 
people's lives.
    I think there are many careers that give you that type of 
opportunity, including my current career as a prosecutor, but I 
think that the opportunities I would have as a judge are so 
much broader and so much more extensive, because as a judge in 
the Superior Court, you are making decisions that directly 
affect people's lives each and every day, and not just in the 
criminal context, but in civil cases and in probate and tax 
cases and in the family court where you are often called upon 
to decide what is in the best interest of a child.
    So I think even though there are many reasons I would like 
to become an associate judge of the Superior Court, the main 
one is that it would give me a broader range of opportunities 
to make a difference in people's lives. And that is an 
opportunity I really am looking forward to.
    Senator Begich. Very good. Mr. O'Keefe. And I want to 
comment, for a mother raising nine kids, I am from a large 
family of six, four boys, which was, I think, a challenge for 
any mother, but nine? I do not know what to say. I will just 
leave it at that.
    Mr. O'Keefe. Thank you, Mr. Chairman. I consider being a 
judge the highest calling of the legal profession. Judges are 
called upon to protect the fundamental rights of the people 
that come before them and to expeditiously resolve conflict in 
a peaceful way. And after spending 19 years of my life in the 
courtrooms of D.C. Superior Court, I have an appreciation for 
the qualities that make a good judge and that foster the trust 
in the justice system in the District of Columbia.
    I appreciate the qualities that judges have to--that give 
confidence to the people of the District of Columbia that they 
are getting a fair shake. And I would just like to use my 
experience in the courtroom for the opportunity of being a 
judge of the Superior Court and serving a life of public 
service.
    Senator Begich. Very good. If I can followup and go from 
there, and then I will again go to Mr. Okun next, and that is, 
you both had different paths. You got here in different ways, 
but you are now in front of us for an associate judge position. 
What do you think, in your career, your experience to date, 
legal or otherwise, do you think prepared you for this and for 
the work that you are going to be handling?
    As you know, the Court is very diverse and what you will be 
handling depends on rotations. So give me what you think 
prepared you to be at this point and to be able to handle a 
wide range of issues that will be in front of the Court.
    Mr. O'Keefe. Thank you, Mr. Chairman. I think for me being 
at the courthouse every day and dealing with--I mean, over the 
years, we are talking about thousands of people of every walk 
of life, I feel like I have had to interact with and assist 
people from--I have represented a Congressman in D.C. Superior 
Court and I have represented a homeless child in D.C. Superior 
Court.
    So I have a good sense of the various issues that are out 
there in the District of Columbia that are affecting the 
people. And I have a greater sense of what it takes for a judge 
to treat people with respect. I understand the issues and 
ultimately, to provide an unbiased and a fair resolution of 
people's cases.
    Senator Begich. Very good. Mr. Okun.
    Mr. Okun. Thank you, Mr. Chairman. I think there are 
probably two experiences that would have contributed most 
greatly to me becoming a successful Superior Court judge. First 
is my experience at the U.S. Attorney's Office. I have spent 
almost 20 years at the U.S. Attorney's Office. I have been in 
Superior Court on a regular basis, either trying cases or 
litigating motions, and I am very familiar with the procedures 
in Superior Court.
    I am very familiar with the judges, with the court 
personnel, with the attorneys who appear in Superior Court, so 
I think my experience as an Assistant United States Attorney 
(AUSA) practicing in Superior Court would certainly serve me 
well as a Superior Court judge.
    But I also think that my experience on a Hearing Committee 
for the Board on Professional Responsibility would serve me 
well if I were a Superior Court judge. When I served on a 
Hearing Committee for the Board on Professional Responsibility, 
I presided over hearings involving alleged attorney misconduct, 
and I did things that judges typically do. I ruled on motions, 
I ruled on objections, and ultimately, I wrote findings of fact 
and conclusions of law.
    I think that experience would certainly be relevant and 
would help prepare me well to be a Superior Court judge.
    Senator Begich. Let me ask you, again, some additional 
questions here. What do you think are the biggest challenges in 
the Court, and are there things that you would look at to try 
to change. If so, where would you get that advice? I will start 
with Mr. Okun.
    Mr. Okun. I think one of the biggest challenges----
    Senator Begich. I recognize you are looking from the 
outside in, so you may see something different once you are in 
there that you might see from a different perspective. But from 
where you sit today, what are those things that you would say, 
Look, I wish we could change this, and how would you go about 
it and where would you seek advice?
    Mr. Okun. Well, first of all, I think that Superior Court 
is a very well run Court and I think that Chief Judge 
Satterfield has done a great job in leading the Court. I think 
they have done a lot of things to improve the operations of the 
Court over the years. I think there is still a challenge in 
terms of delay, in terms of getting cases decided quickly.
    I have seen that in my position as Chief of the Special 
Proceedings Division where I have seen post-conviction motions 
sometimes languish for years before being decided. I think that 
one of the things that can be done to try to address that 
problem is the increased use of performance standards and time 
guidelines in ruling on cases or in deciding cases.
    And I do want to say that the Superior Court has started 
implementing those performance standards, so I think they are 
moving in the right direction, but I think there still is some 
work to be done.
    Senator Begich. Let us say the Court as a body cannot get 
it all together to do that. Would you do it as an individual 
judge, just say, here is my standard, here is what I want to 
do, here is how I am going to get these out, and make sure 
people who come to your court are aware of that?
    Mr. Okun. Absolutely, because I think regardless of what 
other judges are doing, you as a judge, have your own 
responsibility over your own calendar and your own cases, and I 
think a judge does have a responsibility to decide cases both 
correctly, but also quickly.
    Senator Begich. Mr. O'Keefe.
    Mr. O'Keefe. I think one of the things that could use some 
improvement, although I agree with Mr. Okun that Superior Court 
is incredibly well run, one of the things is to cut back on 
waiting time of litigants and lawyers, people who come to D.C. 
looking for an expeditious resolution of their cases, and 
sometimes many cases are all scheduled at the same time, 
requiring that some people wait longer than others, just 
depending on when their case gets called.
    So that is one thing I think the customers of the Court 
would certainly appreciate if they could have maybe a more 
finite amount of time that they knew their case would be heard.
    Another thing, which involves the criminal arena, is if a 
witness is seeking to be a cooperating witness in a case, which 
certainly the U.S. Attorney's Office wants and it is helpful to 
the witness to resolve their case favorably for them, but it is 
a dangerous thing. And in order for a witness to speak with the 
U.S. Attorney, they have to go to the U.S. Attorney's Office. I 
am talking about incarcerated witnesses now.
    And when they leave the D.C. jail and go to the U.S. 
Attorney's Office, everyone knows. And so, they are putting 
themselves in personal danger by trying to assist. What we need 
is confidential meeting rooms in the basement of the courthouse 
so that when prisoners are coming over, it appears that they 
are just going to court for a regular court hearing, and in 
fact, they can then go and do their confidential debriefings.
    I think that would help the U.S. Attorney's Office close 
cases and it would protect folks that are interested in 
cooperating. Those are two areas that I, over the years, I have 
felt needed to be addressed.
    Senator Begich. Very good. I will ask one more question. I 
have a couple more, but I will turn to Senator Paul if he has 
some questions after this one. First, I will give you my 
experience. I am no attorney. No disrespect to attorneys. I 
want to start with that disclaimer.
    But I have been in the apartment business for many years, 
and so I do my own forcible entry and detainers (FEDs). I 
represent myself, so I go do my forceful entry and detainers 
myself, which is its own experience, and I have taught myself 
how to deal with the situation with the judge. But I have also 
seen others who go represent themselves or attempt to or they 
are in trouble themselves, but have no attorney..
    And you have a judge then sitting there who is trying to 
balance the work they have, which is to make judgment, but at 
the same time recognizing they may not be fully informed as an 
individual who is now in front of the court. Honestly, in my 
Alaska courts, I have seen this. And, of course, if they are 
doing landlord business, I am very quick to say, Hey, time out. 
I am not a lawyer, but here are some things you better have 
before you go in front of that judge.
    How will you handle that, as now you are going to be not an 
attorney in the stands there wanting to say, that homeless 
person that is there maybe representing themselves, you want to 
make sure they have good representation, or at least know the 
law of what they are trying.
    And also with Mr. O'Keefe. How will you manage to ensure 
that they are not losing some rights they may just not be aware 
of. Does that make sense?
    Mr. O'Keefe. Yes, absolutely. Thank you. And I think one of 
the things is for a judge is to explain things to the people 
that come before them. The last thing you want is for people to 
leave the courtroom scratching their heads and not 
understanding what just happened. It does not foster a sense of 
respect for the justice system.
    So having had the types of clients I have had for the past 
19 years, I am constantly explaining things to folks of all 
different levels so that they understand it.
    Senator Begich. So the process, procedure?
    Mr. O'Keefe. Exactly. Or just letting them know what the 
law is. With regard to folks that come in, for the most part, I 
would say people really do need a lawyer even though----
    Senator Begich. Sometimes people like me get a little 
crazy.
    Mr. O'Keefe. And there are plenty of places in D.C. where 
you can get pro bono help, pro bono assistance.
    Senator Begich. Right.
    Mr. O'Keefe. So what I would----
    Senator Begich. As a judge, how do you----
    Mr. O'Keefe. I think I would have a list and say, you know 
what? You might want to go to this particular, even 
neighborhood legal services or the D.C. Bar or folks that work 
in law firms that do pro bono work. But give them an 
opportunity to go and consult with an attorney.
    Senator Begich. Very good. Mr. Okun?
    Mr. Okun. Thank you.
    Senator Begich. And you get the question I am asking?
    Mr. Okun. Yes. I think it is a big challenge because there 
are many pro se litigants in Superior Court, and I think the 
challenge of dealing with pro se litigants is one of the 
biggest challenges that the Court faces. Fortunately, I do have 
a good amount of experience dealing with pro se litigants 
because the majority of the motions that we receive in my 
division are filed by pro se litigants.
    But I realize that it is different dealing----
    Senator Begich. So you see lots of me.
    Mr. Okun. Well, maybe not exactly, but I have seen many pro 
se litigants, and I can say, though, I realize that the 
challenge of dealing with pro se litigants as an attorney is 
different from the challenge of dealing with pro se litigants 
as a judge. And I think the challenge is balancing competing 
interests.
    On the one hand, you want to make sure that a pro se 
litigant is not unfairly taken advantage of by someone else who 
has a lawyer, but on the other hand, you do not want to bend 
over backward so much that you are giving an unfair advantage 
to the pro se litigant.
    Senator Begich. Understood.
    Mr. Okun. And I think the way that a judge should balance 
those competing interests is, first--and this is as Mr. O'Keefe 
said--by explaining thoroughly and patiently the rules and 
procedures that a pro se litigant has to follow, before any 
proceeding, by talking in language that the pro se litigant can 
understand, and ultimately, by trying to rule in as fair and an 
impartial manner as you can.
    Now, I know that is easier said than done, but I do think 
that my experience in dealing with pro se litigants would help 
me in that respect. And I also do want to point out that the 
Court has instituted a number of self-help or resource centers 
for pro se litigants, and I would certainly encourage pro se 
litigants to utilize those resources.
    Senator Begich. Very good. I appreciate that. It is always 
touchy how you create the balance, and I will say in my own 
experience in Alaska I have seen judges that explain procedures 
and processes to the person or people before the actual case 
starts.
    I have seen some incredibly positive results where someone 
might actually say right then that they may want to delay based 
on more knowledge that they just received on what this process 
means and what the risk is of not having good representation. I 
have seen others who just say, Let us just go, I know what I 
want to do.
    But thank you for both those answers. I have a couple more, 
but let me turn to Senator Paul, who is the Ranking Member of 
the Subcommittee here. Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Thank you and thank you for coming today. 
This question, I guess, is for both of you, how do you view the 
relationship between the Heller decision and the current D.C. 
gun laws?
    Senator Begich. Who wants to answer first? Mr. O'Keefe will 
start.
    Mr. O'Keefe. Well, the current D.C. laws are trying to come 
into compliance with the Heller decision. I believe that there 
are still some issues in the Heller decision that are being 
litigated in the courts. They are still ironing out some of the 
problems with it.
    But with regard to what would come before a judge in the 
D.C. Superior Court, we would just apply the law that is in 
effect at the time, and really any conflict between the law and 
the Heller decision, I mean, that has to be worked out by the 
Supreme Court and the District of Columbia. But the law that is 
on the books is the law that we are going to follow.
    Senator Begich. Mr. Okun.
    Mr. Okun. Thank you, Senator Paul. The Supreme Court's 
decision in Heller, of course, is the binding precedent 
concerning the 2nd Amendment. But the Heller decision did not 
address every issue about the scope of the 2nd Amendment, and 
the D.C. Court of Appeals subsequent to Heller has been 
addressing the scope of the 2nd Amendment in light of the 
Heller decision, and some subsequent Supreme Court decisions.
    But ultimately, and this is as Mr. O'Keefe would say, as a 
Superior Court judge, I would be following both the Supreme 
Court's decision in Heller, and also any D.C. Court of Appeals' 
opinions that interpret the scope of Heller.
    Senator Begich. Very good.
    Senator Paul. And just as a followup, I would like to hear 
your opinions on sort of the relationship between the 14th 
Amendment and the 2nd Amendment. Heller acknowledges the 
incorporation of the 2nd Amendment, but also uses it as a 
backdrop for saying that there are certain privileges and 
immunities. I would just like to hear your understanding of the 
relationship between the 14th and the 2nd Amendments.
    Senator Begich. Mr. Okun.
    Mr. Okun. Thank you, Senator Paul. D.C. is a little 
different in terms of--some of the rights that apply to D.C. 
have been applied through the 5th Amendment due process clause 
and not through the 14th Amendment, but in any event, to the 
extent that courts were applying rights contained in other 
constitutional provisions, such as the 2nd Amendment to D.C. 
through the 5th Amendment or otherwise, I as a Superior Court 
judge would follow whatever precedent applied in that context.
    Senator Begich. Mr. O'Keefe.
    Mr. O'Keefe. Essentially the answer is the same. I mean, 
for D.C. law is going to be the main law that we follow, of 
course, as modified by the Supreme Court of the United States. 
That is the law of the land. That is the supreme law and 
anything that is handed down by the Supreme Court is going to 
be what we follow in Superior Court.
    Senator Paul. Well, essentially, the next questions that 
will come up probably will be what is excessive regulation. 
They have ruled out a ban on guns, but then the question is, 
can you have a $5,000 fee for getting a gun? It is still quite 
difficult to have a gun for self-defense in D.C. There still 
are problems from the point of view of gun owners.
    We had a gentleman who was calling for help, asking for 
help because he was having bad dreams. He was a veteran. They 
came in, found that two guns were not registered properly. He 
was arrested. He spent 17 days lost in the D.C. prison system, 
which I would encourage that we try to find a solution to, 
during the snowstorm a few years ago. And he was incarcerated 
for 17 days without contacting an attorney or his family where 
he was. They lost him in the D.C. prison system.
    So whatever control you might have over that, I would 
suggest that we try to do a better job. But we also have to 
realize, and I think have a different attitude toward people 
who have gun ownership. During the gun ban, there was no 
evidence really that it had a significant impact for bettering 
D.C. And there are a lot of people who live in DC, myself, who 
would like to be able to have some self-defense within the 
city.
    And so, just be aware, and I think you are, that it is a 
big issue and that it is an important right. The Supreme Court 
has said that it is a right that D.C. citizens do have as well 
as the States, and the 2nd Amendment is binding, not only on 
D.C., but on the States. Thank you.
    Senator Begich. Thank you very much, Senator Rand Paul. 
Thank you for the additional comments. I just have two quick 
questions and then I will end there, if that is OK, unless you 
have some additional questions, Senator Paul.
    This is more of maybe a fun question. I do not know, but as 
the Court has multiple areas it will cover. Is there any one of 
those that you are kind of looking forward to and then ones 
that you think--I do not want to use this phrase but I will 
because you both brought students back to school.
    But you know one are maybe will help. You have the civil 
division, family court, probate, tax division. I mean, it is a 
collection. It is an amazing jurisdiction when you think about 
it. Are there any of those that you are looking forward to, and 
then ones that you might say, I know if assigned to that area I 
am going to have to get some additional education, or at least 
knowledge, in that area? Mr. O'Keefe.
    Mr. O'Keefe. Thank you, Mr. Chairman. I think for me, I am 
looking forward to getting into the civil division, just 
because I have done a little bit of civil litigation, but not 
very much. And it is new, so I think I would enjoy getting into 
a new area of law and just getting up to speed on that, 
something that I did not really have the opportunity to spend a 
lot of time with.
    I cannot think of an area that I am not looking forward to 
just because it is all going to be new in terms of a new job 
and I enjoy the process of learning new areas of law. I would 
say that the least interesting at this point, but I am not 
sure, the least amount of time I spent was in the probate 
division. But I am sure once I get into that, I would find it 
fascinating as well.
    Senator Begich. Very good. Mr. Okun.
    Mr. Okun. Thank you, Mr. Chairman. I think I certainly 
would like to work on civil cases again. I do have civil 
experience, but it has been a number of years since I really 
primarily practiced in the civil area. So I would like to work 
on civil cases, but I also would tremendously like the 
opportunity to work in the family court.
    I think the family court work is incredibly important. I 
think it is incredibly diverse and varied and I think you are 
really making an impact on people's lives. So I know that I 
would like to have, at some point in my career if I do become a 
Superior Court judge, a chance to work in the family court.
    In terms of what I know the least, it has to be tax.
    Senator Begich. I think Senator Paul and I could tell you a 
lot about tax today. Another issue, another day.
    Mr. Okun. But I will say, even though honestly I do have 
the least experience in tax, I think that I would be able to 
learn it, just like I have learned new areas of law in the 
past, and that is by working hard, by reading cases on a 
regular basis, by trying to take advantage of as many training 
opportunities as I can, and then ultimately by talking to 
people who have more experience than me, in this case, by 
talking to the judges who are in the tax division of the 
Superior Court. And I think if I undertook those steps, I could 
learn even maybe an area like tax.
    Senator Begich. Very good. This is one where it is kind of 
the conflict issue potential. In all your years you have worked 
with a lot of different attorneys, some that are friends, some 
that are associates. Now you are going to be a judge. And you 
may have these individuals obviously coming in front of you 
that you have, maybe very close friends, maybe just associates, 
maybe cases you have worked on together.
    How will you handle that or recuse yourself depending on 
the situation? What will be your process to do that? Mr. 
O'Keefe.
    Mr. O'Keefe. Thank you, Mr. Chairman. I do not think I 
have--since I am a solo practitioner, I will not have any 
partners that I would have to recuse myself from. But over the 
years, over the 19 years that I have been in Superior Court, I 
have been co-counsel with many lawyers and I have opposed many, 
many lawyers. Like in the family cases, there may be sometimes 
five, six attorneys on a particular case and sometimes you are 
opposing them; sometimes you are on the same side with them.
    We are all professionals down there and it is the kind of 
atmosphere where even if you are in a heated battle with a 
prosecutor in a criminal case, you can walk out in the hallway 
and you are still friends. So it is just the professionalism 
that goes on down there.
    I do not think I would still be able to be completely 
neutral in handling any case that came before me even if I knew 
the parties on both sides just because we are there to evaluate 
the facts of the case and apply the law to the facts as they 
are.
    Senator Paul. Mr. Chairman, that is sometimes true in the 
Senate, too, right?
    Senator Begich. Yes, it is. That is a good point. Mr. Okun.
    Mr. Okun. Mr. Chairman, well I certainly would recuse 
myself from any case that I worked on while I was at the U.S. 
Attorney's Office. I also would recuse myself from any case 
where a good friend or certainly a family member was a party or 
a witness in a case. But other than that, I have been 
practicing in Superior Court for many years and I know lots of 
the lawyers who practice there. And the fact that someone was 
appearing before me as a lawyer would not cause me to recuse 
myself.
    Senator Begich. Very good. I have no additional questions. 
I do want to associate my comments, also, with Senator Paul in 
regards to the Heller case and some of the implementation of 
that. We both come from very strong States on gun rights and 
like him, it is difficult to own a gun in this community. I 
have attempted; it does not work out so well.
    But I really appreciate, first, your comments on that, but 
also you appearing today. Like I said, I was not sure if it was 
going to be painful, but it was good, a lot of good answers. I 
really do appreciate that and I thank you for taking the time 
to be here, and your families and friends for attending. I have 
no further questions. We will be patient because Senator Carper 
is on his way. Now I cannot determine your outcome. I only wish 
you the best.
    We will wait just a moment. There he is. Look at that. I 
will tell this to Senator Carper because I want him to know it 
as a new Chair of this Subcommittee, how efficient we are. He 
came in time because we were just about to adjourn. He is the 
Chair of the overall Committee. We are just honored to have him 
here and it has been an honor to be able to chair this 
subcommittee.
    So let me turn to Senator Carper. We just finished the 
questions, but we are open for your statement and questions.
    Chairman Carper. Thanks. How is it going so far?
    Senator Begich. I was ready to adjourn. These guys are 
good.

              OPENING STATEMENT OF CHAIRMAN CARPER

    Chairman Carper. Well, welcome. Early in my life, early in 
our Chairman's life, he was the Mayor of Anchorage and I was 
the Governor of the State of Delaware, and one of the things 
that we never talked about in 1992 when I ran for Governor I 
had, I think, 37 debates or joint appearances with my 
Republican opponent. And of all the issues that came up, no one 
ever asked what kind of qualities we would look for in terms of 
the folks we nominate to serve on the bench.
    As it turns out, Delaware has--for us, our courts are very 
important, Court of Chancery and our Supreme Court as well, and 
others, too, but it turned out I just spent a whole lot of time 
thinking about the kind of qualities that we should look for in 
the candidates for different judgeships on different courts.
    So I value the work that they do and value the work of 
those who preceded you here in the District of Columbia. I have 
just maybe one, maybe one or two questions if I could, but 
thank you for your interest in serving.
    As you know better than me, the caseloads at the D.C. 
Superior Court can be daunting. It is probably an 
understatement. But if confirmed, how do you go about ensuring 
that your courtroom will operate efficiently while giving each 
case, as best you can, the appropriate attention that it 
deserves? Mr. O'Keefe.
    Mr. O'Keefe. Thank you, Senator Carper. That is--that is 
the great balancing act that is required, to be able to move 
the cases along, but also spend the amount of time on each that 
it deserves. For me, I think having been down there every day, 
I would have a system of having the cases that are going to 
be--that are going to take less time, call them first and get 
folks out as quickly as possible.
    The cases that are going to take longer, if we know about 
it, let the lawyers know to come back in an hour, hour and a 
half so that people are not sitting around waiting. And that 
way, you can get rid of the quick matters and spend the time on 
the longer matters and, ultimately, resolve all the cases in a 
day.
    Chairman Carper. Mr. Okun.
    Mr. Okun. Thank you, Mr. Chairman. I think that is one of 
the great challenges that a Superior Court judge faces, trying 
to decide cases both quickly and correctly, particularly in a 
courthouse like Superior Court which has such a high volume of 
cases.
    I mean, ultimately, a judge's job is to get it right no 
matter how long it takes. But at the same time, I think there 
are things that a judge can do to try to decide cases both 
correctly and efficiently. And I think one of the primary 
things that a judge can do in order to do that is to prepare. 
And when I say prepare, I mean I prepare not only in court, but 
before you go to court so that the parties and the witnesses 
are not waiting for you to get up to speed on the relevant 
issues.
    So I think even though it is a challenge to decide cases 
both quickly and correctly, I think to the extent that a judge 
prepares before he goes to the courtroom, I think that would 
help enable a judge to decide cases quickly, efficiently, and 
correctly.
    Chairman Carper. Give us some idea of what the caseload is 
like for folks that are now serving in these positions. Either 
one.
    Mr. O'Keefe. It depends on the calendar, but in some 
misdemeanor courtrooms, for example, there may be--must be 25, 
30 cases scheduled for a day and maybe six or seven or eight of 
those are scheduled for trial. And then there will be eight or 
nine or 10 courtrooms exactly like that, all handling 
misdemeanor cases.
    Then there are Felony II courtrooms that have maybe a dozen 
or 15 cases and then there will be other felony courtrooms that 
might have five or six, more serious crimes. Then the civil 
dockets are, just depending on which calendar it is, they can 
be rather large. Family cases are usually scheduled on a half-
hour basis. So those are more organized and set for specific 
time periods.
    But it is the criminal cases, especially in the misdemeanor 
section, are--there is just a glut of cases. So that is what it 
looks like down at Superior Court.
    Chairman Carper. And what kind of assistance do you have in 
terms of law clerk or clerks, in terms of other staff that can 
help you with your caseload?
    Mr. Okun. Oh, Mr. Chairman, you have--typically a Superior 
Court judge will have an administrative assistant and will also 
have one law clerk. I believe the chief judge does have two, 
but the regular associate judges of the Superior Court have one 
law clerk and one administrative assistant.
    Chairman Carper. That is a lot. I can see a grace-over for 
a very small team. If you were in our shoes and we were in 
yours at a hearing like this, what kind of qualities would you 
be looking for in the judges or candidates for the judiciary 
that came before you?
    Mr. Okun. Mr. Chairman, I would be looking for a person 
with a good judicial temperament, and by temperament, I mean 
someone who is fair, who is even-handed, who listens to both 
sides, and who treats people well. And I think judicial 
temperament is probably the most important quality that a good 
judge has.
    Chairman Carper. Mr. O'Keefe.
    Mr. O'Keefe. Yes, I agree. Temperament is key. A judge 
needs to have the intellect to be able to handle the issues 
before him. The judge needs to be expeditious and efficient to 
deal with the caseload, but ultimately, in order to give the 
sense of fairness to the people that are coming before them, a 
judge has to have a good temperament to be able to know how to 
deal with people, treat them with respect, explain his rulings 
so that people walk out of there feeling like they had their 
day in court.
    Another quality which I think is important is courage. 
Sometimes decisions have to be made that are not very popular 
and the judge needs to follow the law even if it means making 
an unpopular decision.
    Chairman Carper. OK. We never have to worry about that in 
our jobs. Well, actually, as he was answering his question, I 
was thinking of the two kids, family members, I want to see how 
they respond of what a judge should be. I think for my 10\1/2\ 
year old and what I go through, I am not sure he would say I 
have the temperament at times, depending on what rules I lay 
down for the day.
    Maybe if I could, just one more question about transition. 
I had to transition from being Governor to serving here, and I 
still describe myself as a recovering Governor, and I am sure 
Mark sometimes considers himself a recovering Mayor of a big 
city. But Mr. O'Keefe, as I understand, you spent a fair amount 
of your career as a defense attorney. I would ask, what kind of 
challenges you might foresee in transitioning from what you 
have done for years to this particular position, if confirmed?
    Mr. O'Keefe. For me, I think the challenge is not going to 
be going from defense attorney to a judge. For me, the 
challenge is going to be going from a solo practitioner to 
somebody who has a clerk and a secretary and a courtroom clerk 
and support staff and a wonderful community down at the 
Superior Court to assist, with fellow judges to ask for advice.
    I do not believe my role as a defense attorney is going to 
present a problem. I understand. A defense attorney is an 
advocate, but in order to be an effective advocate, you have to 
look at both sides of every problem. And as a judge, you take 
out the advocate part. You are just there to listen to both 
sides, apply the law impartially and fairly, and make 
decisions.
    So I guess for me, just changing from a solo practitioner 
to somebody in a community is going to be more of a transition.
    Chairman Carper. Mr. Okun, you have been a prosecutor for 
some time?
    Mr. Okun. For almost 20 years, Mr. Chairman.
    Chairman Carper. How are you about this transition?
    Mr. Okun. Well, I think it would be a challenge, but I 
think there are two things. Both my temperament and my 
experience, I think, would help me meet that challenge, at 
least to some degree. In terms of temperament, I have always 
been someone who could see both sides of an issue.
    And in my current position as Chief of the Special 
Proceedings Division, I have often agreed that defendants are 
entitled to relief when the facts and the law were on their 
side.
    In terms of experience, I have served on a Hearing 
Committee for the Board on Professional Responsibility where I 
presided over hearings involving attorney misconduct. So to 
that extent, I did things that judges in the Superior Court do. 
I ruled on motions, I ruled on objections, and ultimately I 
wrote findings of fact and conclusions of law. So I think that 
that experience would, at least in part, help me make the 
transition from an advocate to an impartial decisionmaker.
    Chairman Carper. OK. Could I ask one last question, if I 
could?
    Senator Begich. Yep.
    Chairman Carper. My last question is, why do you want to do 
this? And this may have already been asked.
    Senator Begich. That was my first question.
    Senator Carper. Now we can see if you are consistent in 
your answer. It is actually a test. We did not want to tell you 
that.
    Mr. O'Keefe. Well, Senator Carper, I came down to 
Washington, DC, to commit my life to public service, and I 
worked in the Senate originally.
    Chairman Carper. What did you do?
    Mr. O'Keefe. I worked for Senator Dodd.
    Chairman Carper. Oh, yes.
    Mr. O'Keefe. And from there, I went to law school. It was 
after I got out of law school and I started doing this kind of 
work, I loved it and I just wanted to continue doing it. And 
being down at Superior Court every day, it is a thrill and it 
is still a thrill. I just feel like I have the qualities that 
would make a good judge. I like helping the folks, the people 
that come in Superior Court. I like being a problem solver. And 
ultimately, I think I have the right temperament for it because 
I am patient and I am a good listener.
    Chairman Carper. Mr. Okun.
    Mr. Okun. Senator Carper, I mean, there are many reasons 
why I would like to become a Superior Court judge, but the main 
one is because it would give me this chance to make a 
difference in people's lives. And I already mentioned this. I 
think there are a number of careers that give you that 
opportunity, including my current one, but I think the 
opportunities you would have as a judge are just broader and 
more extensive because you are making decisions each and every 
day that affect people's lives.
    And one of the things that I like about the opportunity, it 
would be not just in the criminal law context, but in civil 
cases and in the family court. So that I think that really, for 
me, it is the broad range of opportunities to make a difference 
in people's lives that really makes me want to become a 
Superior Court judge.
    Chairman Carper. OK. Who are all these people behind you? 
Who are these people?
    Mr. Okun. I do not know.
    Chairman Carper. People who care about government.
    Mr. Okun. I will say, if I could just for a second, my 
wife, Sue, and my daughter, Julia, are sitting right behind me.
    Chairman Carper. Which is which?
    Mr. Okun. Oh, you are good.
    My wife, Sue, and my daughter, Julia.
    Senator Begich. He is in politics.
    Chairman Carper. Anybody else either of you want to 
acknowledge in the audience, please feel free.
    Mr. O'Keefe. Sure. My brother, Sean, came down from 
Connecticut.
    Chairman Carper. Sean, how are you? Sean, we would like to 
talk with you later.
    Mr. O'Keefe. A very good friend of 30 years, more than 30 
years, came down from New York City.
    Chairman Carper. Who?
    Mr. O'Keefe. Miriam Buhl. My brother-in-law, Scott 
Pastrick, is here----
    Chairman Carper. Hi, Scott.
    Mr. O'Keefe. And his wife, Courtney Pastrick. My son, 
Dylan, is here.
    Chairman Carper. Where is Dylan? How is he doing?
    Mr. O'Keefe. He is 16. He is taking a break from studying 
for finals at Gonzaga right up the street.
    Chairman Carper. OK.
    Mr. O'Keefe. And my nephew, Clark. That is Scott's son. And 
my niece, Kate Brody, is graduating from Georgetown on 
Saturday.
    Chairman Carper. Kate, raise your hand. The person with the 
biggest smile.
    Mr. O'Keefe. And also, Judge Emmet Sullivan is here. I did 
not see him before.
    Chairman Carper. How are you? Welcome.
    Mr. Okun. And if I may, I would just want to acknowledge a 
couple other folks.
    Chairman Carper. Sure.
    Mr. Okun. There are a number of people from the U.S. 
Attorney's Office who are here to show support. I also want to 
introduce the judge that I clerked for in Superior Court more 
than 25 years ago, Frank Schwelb, and also Judge Henry Greene, 
and also as I just noticed as well, Judge Emmet Sullivan, the 
Chair of the Judicial Nomination Commission.
    Chairman Carper. That is great. You all are great to come 
out. Thank you for being here and thank you for introducing 
them. Thanks, Mr. Chairman, for allowing me to ask some 
questions.
    Senator Begich. Absolutely. To the Chairman of the full 
Committee, you bet. Again, Senator Carper, thank you very much, 
great questions, and again, thank you both for your willingness 
to do public service. It is a stress at times to the family, 
not only to yourself, so to you and your families, thank you 
for your willingness to participate and thank you for being 
here today.
    The hearing record will remain open until close of business 
tomorrow, May 16, 6 p.m., for the submission of statements and 
questions for the record. This hearing is adjourned.
    [Whereupon, at 3:24 p.m., the hearing was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 81296.001

[GRAPHIC] [TIFF OMITTED] 81296.002

[GRAPHIC] [TIFF OMITTED] 81296.003

[GRAPHIC] [TIFF OMITTED] 81296.004

[GRAPHIC] [TIFF OMITTED] 81296.005

[GRAPHIC] [TIFF OMITTED] 81296.006

[GRAPHIC] [TIFF OMITTED] 81296.007

[GRAPHIC] [TIFF OMITTED] 81296.008

[GRAPHIC] [TIFF OMITTED] 81296.009

[GRAPHIC] [TIFF OMITTED] 81296.010

[GRAPHIC] [TIFF OMITTED] 81296.011

[GRAPHIC] [TIFF OMITTED] 81296.012

[GRAPHIC] [TIFF OMITTED] 81296.013

[GRAPHIC] [TIFF OMITTED] 81296.014

[GRAPHIC] [TIFF OMITTED] 81296.015

[GRAPHIC] [TIFF OMITTED] 81296.016

[GRAPHIC] [TIFF OMITTED] 81296.017

[GRAPHIC] [TIFF OMITTED] 81296.018

[GRAPHIC] [TIFF OMITTED] 81296.019

[GRAPHIC] [TIFF OMITTED] 81296.020

[GRAPHIC] [TIFF OMITTED] 81296.021

[GRAPHIC] [TIFF OMITTED] 81296.022

[GRAPHIC] [TIFF OMITTED] 81296.023

[GRAPHIC] [TIFF OMITTED] 81296.024

[GRAPHIC] [TIFF OMITTED] 81296.025

[GRAPHIC] [TIFF OMITTED] 81296.026

[GRAPHIC] [TIFF OMITTED] 81296.027

[GRAPHIC] [TIFF OMITTED] 81296.028

[GRAPHIC] [TIFF OMITTED] 81296.029

[GRAPHIC] [TIFF OMITTED] 81296.030

[GRAPHIC] [TIFF OMITTED] 81296.031

[GRAPHIC] [TIFF OMITTED] 81296.032

[GRAPHIC] [TIFF OMITTED] 81296.033

[GRAPHIC] [TIFF OMITTED] 81296.034

[GRAPHIC] [TIFF OMITTED] 81296.035

[GRAPHIC] [TIFF OMITTED] 81296.036

[GRAPHIC] [TIFF OMITTED] 81296.037

[GRAPHIC] [TIFF OMITTED] 81296.038

[GRAPHIC] [TIFF OMITTED] 81296.039

[GRAPHIC] [TIFF OMITTED] 81296.040

[GRAPHIC] [TIFF OMITTED] 81296.041

[GRAPHIC] [TIFF OMITTED] 81296.042

[GRAPHIC] [TIFF OMITTED] 81296.043

[GRAPHIC] [TIFF OMITTED] 81296.044

                                 <all>

</pre></body></html>
